IN THE SUPREME COURT OF THE UNITED STATES

Jeremy Kerr - PETITIONER
vs
State of Ohio - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI
Jeremy Kerr 686-150
North Central Correctional
PO Box 1812
Marion, OH 43301

-1-

filed
APR 2 2 2020

i

\'v.

QUESTIONS PRESENTED FOR REVIEW
Does a state court's judgment of conviction violate the 14th
Amendment to the United States Constitution when the record of
the case is wholly devoid of any evidence that could prove that
the defendant committed an element of the charges within the
borders of that state?
Does a state court's judgment of conviction violate the 14th
Amendment to the United States Constitution when the record of
the case is wholly devoid of sufficient evidence toprove that
the defendant committed an element of the charges as defined by
state law, within the borders of that state?
In a challenge to a state court's subject matter jurisdiction,
does a state court violate the 14th Amendment to the United State
Constitution when it fails to demonstrate how it attained
subject matter jurisdiction?

;

-2-

TABLE OF CONTENTS
Cover Page

page 1

Questions Presented for Review

page 2

Table of Contents

page 3

Table of Authorities

page 3

• •

List of All Parties .

page 5

List of All Proceedings

page 6

Statement of the Basis of Jurisdiction

page 7

Constitutional and Statutory Provisions INvolved

page 7

Statement of the Case

page 8

Request for Granting Writ

page 14

INDEX OF APPENDICES
Appendix A

Decision of the Ohio Supreme Court

Appendix B

Judgment Entry of Ohio Court of Appeals

Appendix C

Indictment

Appendix D

Bill of Particulars

7

-3-

TABLE OF AUTHORITES
CASES:
Crawford V Washington, 541 US 36

10, 11, 12

Hagen v Levin, 415 US 528

12, 13

Jackson v Virginia, 443 US 307

11 , 12

Marysville Exempt School Dustrict v
Union Bd of Rev, 136 Ohio St 3d 146
Melendez-Diaz v Mass., 557 US 305

12
10, 11, 12

Ohio Nat'1 Ins. Co. v US, 922 F.3d 320

12

State v Craig, 110 Ohio St 3d 306

11

State v Hood, 135 Ohio St 3d 147

11

State v Yarbrough, 104 Ohio St 3d 1

10, 13

Thompson v Louisville, 362 US 199

11 , 12

CONSTITUTIONAL AUTHORITIES:
14th Amendment to the United States Constitution

2, 7, 11

RULES:
United States Supreme Court Rule 10
Ohio Evidence Rule 803(6)

7, 14
9

STATUTES:
28 U.S.C. 1257

7

Ohio Revised Code 2901.11(A)

. 10, 11, 13

Ohio Revised Code 2913.05

9

Ohio Revised Code 2913.31(A)(3)

8, 9

Ohio Revised Code 2921.12(A)(2)

8, 9

Ohio Revised Code 2931.03

13

-4^

LIST OF ALL PARTIES
All parties do not appear in the caption of the case on the
cover page.

A list of all parties to the proceeding in the Court

whose judgments are the subject of this proceeding are as follows:
Governor Mike DeWine
Vern Riffe Center
77 S. High St., 30th Floor
Columbus, OH 43215
Attorney General Dave Yost
James A. Rhodes State Office Tower
30 E. Broad St., 14th Floor
Columbus, OH 43215
Sixth Appellate District
1 Constitution Ave
Toledo, OH 43604-6104
Judge Robert Pollex (retired)
Judge Mathew Reger
J
One Courthouse Squafe
Bowling Green, OH 43402
n

Supreme Court of Ohio
65 S. Front St
Columbus, OH 43215

a

C-5\

LIST OF ALL PROCEEDINGS

In the Common Pleas Court of Wood County, Ohio
Case NO. 2012-CR-0389
State v Kerr
Date of Judgment,
In the Ohio Court of Appelas, Sixth Appellate District
Case No. 2019-WD-005
State ex rel Jeremy Kerr -vs- Judge Robert Pollex
Date of Judgment, May 3, 2019
In the Supreme Court of Ohio
Case No. 2019-00752
State ex rel Jeremy Kerr -vs- Judge Robert Pollex
Date of Judgment, February 11, 2020

-6-

STATEMENT OF THE BASIS OF JURISDICTION
Petitioner respectfully prays that a writ of certiorari
issue to review the merits of the following Opinions of the
Ohio Supreme Court, which appears at Appendix A to this
Petition for Writ of Certiorari:
State ex Rel Jeremy Kerr -vs- Judge Pollex and Judge Reger
Decided on February 11, 2020
'
Ohio. Supreme Court Case No: -2019-0752
2 0,20-Ohio-411
Petitioner invokes this Court's jurisdiction under
28 U.S.C. 1257(a).

Further, Supreme Court Rule 10(c) provides

that review on a writ of certiorari will be granted only for
compellng reasons, sue as, when a state court has decided an
important federal question in a way that conflicts with relevant
decisions of this Court.

The facts of the case satisfies

Supreme Court Rule 10(c).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution Amendment Fourteen
All persons born or naruralized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States
and of the State wherein they reside, No State shall make or
enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive a
person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the law.

-7-

STATEMENT OF THE FACTS
Nature of the CHarges
In 2012, an eight-count Indictment was filed against Jeremy
Kerr ("Kerr") in the Court of Common pleas of Wood County, Ohio
[case no. 2012-CR-0389] charging Kerr with fourt counts of
violating O.R.C. 2913.31(A)(3) [Uttering a Forgery], and four
counts of violating O.R.C. 2921.12(A)(2) [Tampering with Evidence],
Judge Robert Pollex ("Judge Pollex") presided over the case.
O.R.C. 2913.31(A)(3) provideds in relevant part, that no
person, with the purpose to defraud, or knowling that the person
is facilitating a fraud, shall utter or posses with purpose to
utter, any writing that the person knows to have been forged.
(Black's Law Dictionary defines "Utter" as a physical exchange of
possession].
O.R.C. 2921.12(A)(2) provides in relevant part, that no
person, knowing that an official proceeding or investigation is
in progress, or is likely to be initiated, shall make, present, or
use any record or thing, knowing it to be false and with purpose
to mislead a public official who is or may be engaged in such
proceeding or investigation, or with purpose to corrupt the outcome
of any such proceeding or investigation.
Upon Kerr's request, the State provided a Bill of Particulars
that stated it will prove at trial that Jeremy Kerr emailed forged
Release of Lien documents from 1480 E. Wooster Sir, Bowling Green,
Ohio, to Wells Bowen Realty for filing with the Wood County Clerk
t'

of Court.

The Bill was never amended.;

[NOne of the allegations in the bill were proven.

-8-

Further;1

an email containing forged documents is a violation of Ohio
Revised Code 2913.05, not O.R.C. 2913.31(A)(3)},
Facts at Trial
Kerr owned real property in Wood County, Ohio, in which, he
placed on the market.

Kerr accepted an offer on the property.

The potential buyer hired Wells Bowen TjL

,iLLC in Toledo

Ohio. [Lucas County, Ohio].
Pat Kost ("Kost") of Wells Bowen Title Agency. LLC discovered
that the property was encumbered with several liens.
Kost then received two emails from ,kerrdesignbuild@cjmailJ..coifi
[the email address was never authenticated] containing four Release
of Lien documents.

After inspecting the documents,1 Kost became

concerned whether the original documents would be accepted by the
Wood County Lerk after the Closing because the "form and font size.'
; didn' t 'seem right"

!

Kost then emailed the documents to the Clerk asking whether
the original documents would be accepted for recordation.

The (*\£.fW

responded that the'form and font size are acceptable. [Kost never
attempted to file the copies, and no "original" documents exists].
The State presented KOst with State's Exhibits 1-E and 1-G
which Kost identified as copies of the emails.

The exhibits were

entered into the record as business records of Wells Bowen Title
Agency, LLC under Ohio Evidence Rule 803(6), Business Records
Hearsay Exemption.
Because the record is wholly devoid of any evidence that Kerr
had possession of, or uttered the forged documents, the State in

-9-

it's Closing Argument solely relied on the Business Records
Hearsay evidence as proof that Kerr sent the two emails containin
the forged Release of Lien documents., [Business Records Hearsay
Evidence cannot proove materail facts, Crawford v Washington,
541 US 36; Melendez-Diaz v Mass •

r

557 US 3051.

The jury, who are not attorneys, relied upon the State's
claim that the Business Record Evidence provesKerr1s^guilt,
and found him guilty ofy^all eight counts,

Kerr was then

sentenced to a prison term of seven years, eight months.
Writ of Prohibition
On January 14, 2019, Kerr filed a Complaint for Writ of
Prohibition against Judge Pollex in the Sixth Appellate District
of Ohio [case no. 2019-WD-005],in which he claimed that Judge
Pollex lacked subject matter jurisdiction under O.R.C. 2901.11(A)
because the record is wholly devoid of any evidence that Kerr
committed an element of the charges within the borders of the
state of Ohio.
O.R.C. 2901.11(A) states that a person is subject to criminal'
prosecution and punishment in this state if the person commits an
offense under the laws of this state, any element of which takes
place in this state.
In State v Yarbroughr 104 Ohio St Id 1

the Ohio Supreme

Court explained that when the record of the case is absent of any
evidence that the defendant commited an element of the charges
within this state, the trial court lacks subject matter jurisdiction
of the case under O.R.C. 2901.11(A).

[In Yarbrough, the Ohio

Supreme Court vacated a murder conviction because the record

-10-

demonstrated that all the elements of the murder were committed
in Pennsyvania, thus the Ohio court lacked subject matter jurisdiction of the criminal case].
In the Prohibition proceeding, Kerr established that the
State failed to present any evidence that could prove, in the
state of Ohio, that Kerr has possesion or had uttered the forged
documents; or, that Kerr had presented the forged documents to
the Clerk. Kerr argued that the absence of such evidence violates
the "No Evidence Rule" established by this Court in Thompson v
Louisville, 362 US 199, "a conviction based upon a record that is
wholly devoid of any evidence o’f^an ^element '<©f the charges
violates Due Process under the 14th Amendment to the United States
Constitution".
Kerr also established that the State's failure to present
sufficient evidence to establish that Kerr had committed an element
of charges in Ohio under O.R.C. 2901.11(A) violates this Court's
decision in Jackson v Virginia. 443 US 307. which mandates the
state to provide sufficient evidence to prove the elements as
defined by state law.
Kerr further established that this Court declared in Crawford
v Washington. 541 US 36 and Melendex-Diaz v Mass.. 557 US 305. that
Business Records Hearsay Evidence is not testimonial and cannot
prove materail facts.

These decisions were echoed by the Ohio

Supreme Court in State v Craiar 110 Ohio St 3d 306 and State v
Hood. 135 Ohio St 3d 147.
Moreover, Kerr established that because he is challenging

-11-

subject matter jurisdiction, Judge Pollex has a mandatory duty to
prove subject matter jurisdiction under this Court's decision in
Hagens v Levin. 415 US 528.

Further^J the Ohio Supreme Court had

declared that "when subject matter jurisdiction is challenged, the
party claiing jurisdiction bears the burden of demonstrating that
the court had jurisdiction of subject matter

Marysville Exempt

School District v Union Bd of Rev. 136 Ohio St 146 relying on
Ohio Nat'1 Life Ins Co v US, 922 F 3d 320.
On May 3, 2019, the Appellate Court sua sponte dismissed
Kerr's Complaint because (1) it erroneously found that Kerr failed
to challenge subject matter jurisdiction; and, (2) it found that
Kerr had an adequate remedy of law by way of direct appeal.
[Kerr's complaint solely focuses on subject matter

_

jurisdiction, and the claim of an adequate remedy at law is an e
application of res judicata to a challenge to subject matter
jurisdiction].
Direct Appeal
On JUne 4, 2019, Kerr filed a direct appeal to the Ohio
Supreme Court [case no 2019-0752] in whcih he argued that the
appellate court erred in sua sponte dismissing his complaint.
Kerr also re-raised his entire argument that he presented to
the appellate court such as the "No evidence Rule" and sufficnt
evidence violation held by this Court in Thompson v Louisville.
362 US 199 and Jackson v Virginia. 443 US 307.
Ker further presented this Court's findings in

w

Washington, 541 US 36 and Melendez-Diaz v Mass.r 557 us 3Ds

(GJ

J

In the proceeding, Kerr also re-establishedthat because he
is challenging subject matter jurisdiction, Judge Pollex has a
mandatory duty to demonstrate how he achieved subject matter
jurisdiction under O.R.C. 2901.11(A).. Hagens v Levin. 415 US 528.
In the proceeding, Judge Pollex filed a Merit Brief in which
he argued that Kerr;s claims are moot because he has original
subject matter jurisdiction under O.R.C. 2931.03, which gtants
the common pleas courts with original jurisdiction over crimes
and offenses, except in cases of minor offenses that exclusive
jurisdiction of which is vested in courts inferior to the courts
of common pleas.
Kerr filed a Reply Brief ihr\whichv,he argued that even though
O.R.C. 2931.03 grants Judge Pollex original jurisdiction, Ohio
Law is very clear, that both t ORC 2931.03 and ORC 2901.11(A)

must!

be satisfied for Judge Pollex to have subject matter jurisdiction
of the case.
On February 11, 2020, the Ohio Supreme Court ignored the
requirements of O.R.C. 2901.11(A), and affifmed-the appellate
court's judgment by finding that Judge Pollex had original subject
matter jurisdiction under O.R.C. 2931.03.

[See Appendix A].

Interestingly, the Yarbrough trial court also had original
subject matter jurisdiction under O.R.C. 2931.03, yet, the Ohio
Supreme Court convienetly forgot that fact when deciding this case.

)

-13-

REQUEST FOR GRANTING THE WRIT
Supreme Court Rule 10 prescribes that a petition for writ
of certiorari will not be granted only for compelling reasons,
such as, when a state court has decided an important question
of federal law that has not been, but should be, settled by this
Court, or has decided an important federal question in a way that
conflicts with relevant decisions of this Court.
The facts of this case, and the documents attached in the
Appendix, on it s face, demonstrates a clear violation of Kerr's
ri-9ht to due process of law, and when presented this question
of federal law, each level of the Ohio Courts settled the issue
in a-way that conflicts with this Court's decisions.
WHEREFORE, Petitioner requests this Court to grant his
Petition for Writ of Certiorari.
Respectfully submitted,

North Central Correctional
PO Box 1812
Marion, OH 43301

-1'4-'

